HHS/OIG-Audit--"Audit of the California Separtment of Social Services
Rate-setting Methodology for Foster Family Agencies, (A-09-96-00082)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of California Department of Social Services Rate-Setting Methodology
for Foster Family Agencies," (A-09-96-00082)
November 17, 1997
Complete Text of Report is available in PDF format
(387 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report identified a need for the California Department of Social
Services to (1) make a current study of its rate-setting methodology used for
compensating foster family agencies for services provided to foster children
in California, and (2) make revisions as necessary to ensure that only necessary
and proper costs are claimed for Federal financial participation in the future.
These agencies provide foster care and related services for a significant number
of children in California. The audit disclosed that amounts included in the
payment rates for administrative activities were too high, and that amounts
provided for social services were understated. Information obtained in the audit
indicated that the Federal government was charged for payments in excess of
those necessary for the proper and efficient administration of the Federal title
IV-E foster care program; however, it was not practicable to determine the overall
financial impact on claims for Federal reimbursement.